                                       SOCIAL SECURITY

MEMORANDUM
Date:      March 18, 2003                                                     Refer To:

To:        The Commissioner

From:      Inspector General


Subject:   Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)


           We contracted with PricewaterhouseCoopers (PwC) to evaluate the data used to
           measure 18 of the Social Security Administration’s (SSA) performance indicators
           established to comply with the Government Performance and Results Act. Attached is
           a final report that presents the results of three of the performance indicators PwC
           reviewed. The objective of this audit was to assess the reliability of performance
           indicators for implementing activities necessary to have the software and infrastructure
           in place for (1) paperless processing of Retirement and Survivors Insurance and
           Supplemental Security Income aged claims, (2) electronic processing of disability
           claims, and (3) electronic processing of hearings and appeals.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                    James G. Huse, Jr.


           Attachment
          OFFICE OF
  THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


 PERFORMANCE INDICATOR
         AUDIT:
  PAPERLESS/ELECTRONIC
       PROCESSING

   March 2003   A-15-02-11084




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM
To:                  Office of the Inspector General
From:                PricewaterhouseCoopers LLP
Date:                February 24, 2003
Subject:             Performance Indicator Audit: Paperless/Electronic Processing
                     (A-15-02-11084)


The Government Performance and Results Act (GPRA) of 19931 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity set forth in its budget.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance.3 The objective of this audit
was to assess the reliability of the following Fiscal Year (FY) 2002 GPRA performance
indicators:

Performance Indicator
    1.   Implement activities necessary to have the software and infrastructure in
         place for paperless processing of Retirement and Survivors Insurance (RSI)
         and Supplemental Security Income (SSI) aged claims.4
    2.   Implement activities necessary to have the software and infrastructure in
         place for electronic processing of disability claims.5
    3.   Implement activities necessary to have the software and infrastructure in
         place for electronic processing of hearings and appeals.6
See Appendix A for a description of the audit scope and methodology.




1
    Public Law No. 103-62, 107 Stat. 285.
2
    31 U.S.C. 1115 (a) (4).
3
    31 U.S.C. 1115 (a) (6).
4
 Social Security: Performance Plan for Fiscal Year 2003, Revised Final Performance Plan for Fiscal Year
2002, page 73.
5
    Ibid, page 76.
6
    Ibid, page 78.




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)                        1
BACKGROUND

SSA offers retirement and long-term disability programs to the general public. Old-Age,
Survivors, and Disability Insurance (OASDI) is authorized under title II of the Social
Security Act (Act) and includes RSI and Disability Insurance (DI).7 Through the OASDI
program, eligible workers and sometimes their family receive monthly benefits if they
retire at an appropriate age or are found to have a disability that either prevents them
from engaging in substantial gainful activity for at least 12 months or can be expected to
result in death.8 SSI is authorized under title XVI of the Act and provides monthly
payments to aged and disabled individuals based on financial need and medical
requirements.9

SSA’s FY 2002 Annual Performance Plan (APP) includes five broad strategic
objectives, the first of which is “To deliver citizen-centered world-class service.” In
support of this objective, SSA developed a number of goals to improve paperless and
electronic processing of benefit claims and appeals. These goals will enhance SSA’s
service delivery and provide more efficient and effective processing of benefits. This
report presents the results of our audit and SSA’s completion of the following goals:


    P.I./  Goal                                         Description
    Goal #
    1-A       Accommodate dual entitlement              The Modernized Claims System 3.8
              advance file cases; automate              upgrade will allow processing of more
              determination of need to develop          advanced RSI and DI cases helping
              military service allegations; update      SSA avoid manual paper calculations.
              the workers compensation file; and
              control certain exceptions via a
              Processing Center Action Control
              System (PCACS) interface.




7
    42 U.S.C. 401 et seq.
8
    42 U.S.C. 423 (d)(1).
9
    42 U.S.C. 1381 et seq.


Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)               2
 P.I./  Goal                                            Description
 Goal #
 1-B       Implement Phase 2 of Attorney Fee/           An individual applying for or receiving
           Windfall Offset project. Begin               benefits from Social Security has the
           analysis of additional windfall offset       right to select an attorney to represent
           enhancement.                                 them in pursuit of benefits from SSA.
                                                        The individual may also elect to enter
                                                        into a “fee agreement” with their
                                                        attorney prior to a determination being
                                                        made for benefits eligibility. Phase II
                                                        of the Attorney Fee/Windfall Offset
                                                        project will automate computations of
                                                        attorney fees when there is an
                                                        approved fee agreement for cases
                                                        involving both title II and title XVI
                                                        benefits concurrently. In addition, this
                                                        process will revise how the windfall
                                                        offset is calculated.
 2-A       Develop rules for a paperless
           business process, requirements/
           infrastructure for the Electronic
           Folder (EF) and requirements to
           interface the EF with the legacy
           systems used to process disability
           claims.
 2-B       Develop requirements and a
           systems solution for the Office of
                                                        Performance Indicator #2 goals all
           Hearings and Appeals case
                                                        support the Accelerated Electronic
           processing system.
                                                        Disability (AeDib) initiative and allow
 2-C       Develop a strategy for electronic            SSA to have the software and
           forms and integration with the EF            infrastructure in place for electronic
           and procure a tool.                          processing of disability claims.
 2-D       Establish policies/procedures for
           electronic signatures (internal and
           external requirements) and the
           policies necessary to make the EF
           the official Agency record.
 2-E       Develop infrastructure for electronic
           medical evidence and integration
           with the EF.




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)                      3
 P.I./  Goal                                            Description
 Goal #
 3-A       Modernized SSI Claims System                 This functionality will provide field office
           (MSSICS) will support field office           staff with the ability to enter requests
           entry of requests for hearings and           for hearings and appeals into MSSICS.
           appeals.
 3-B       Provide web-based query access to            This functionality will provide all SSA
           the Consolidated Hearings Office             employees the ability to access and
           Tracking System (HOTS) database,             view HOTS data through a web-based
           which includes the request for               interface.
           hearing.


RESULTS OF REVIEW
The performance indicators evaluated in this report measure the completion of specific
milestones for FY 2002. We performed our audit based on work completed as of
December 11, 2002. We evaluated the processes and controls for the three
performance indicators and determined the successful completion of each goal for FY
2002. Our audit found that four of the nine goals were not completed by fiscal year-
end.

We also reviewed all completed work and associated documents for each goal. We
found the results of each goal to be reasonable and adequate for their respective
objectives stated in the performance plan. Where appropriate, we ensured that
software releases were performed in accordance with SSA’s Software Development Life
Cycle and industry standard practices. We did note, however, one goal was completed
prior to the start of FY 2002 and inaccurate data was reported for two goals in SSA’s
internal “Status Tracking Report” for the performance indicators.

We also determined if each performance indicator was an appropriate GPRA measure.
We found that the performance indicators do not measure outputs or outcomes and are
not qualitative or quantitative as prescribed by GPRA. However, the performance
indicators address several government-wide initiatives including the Government
Paperwork Elimination Act and the President’s Management Agenda item for expanding
electronic government. Office of Management and Budget Circular A-11 Part 6, Section
210.5 states that "Performance goals that represent milestones in achieving the general
goals of a strategic plan may be appropriate." We therefore found that these
performance indicators were appropriate measures for the APP.

PERFORMANCE INDICATOR #1 GOALS WERE COMPLETED FOR FY 2002

We evaluated SSA’s completion of “activities necessary to have the software and
infrastructure in place for paperless processing of RSI and SSI aged claims.” We
determined that the specific milestones listed contributed to the overall objectives of the
performance indicator. Additionally, we found that these goals were completed for

Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)                    4
FY 2002 and both system upgrades were released to production. Our findings are
consistent with what SSA reported in their Performance and Accountability Report for
FY 2002 for this performance indicator.

PERFORMANCE INDICATOR #2 GOALS WERE PARTIALLY COMPLETED FOR
FY 2002

We evaluated SSA’s completion of “activities necessary to have the software and
infrastructure in place for electronic processing of disability claims.” We determined that
the specific milestones listed contributed to the overall objectives of the performance
indicator. Additionally, we found that goal 2-B was completed by fiscal year-end but that
the other four goals for this performance indicator were not completed by fiscal year-
end. Our findings are consistent with what SSA reported in their Performance and
Accountability Report for FY 2002 for this performance indicator.

PERFORMANCE INDICATOR #3 GOALS WERE COMPLETED FOR FY 2002

We evaluated SSA’s completion of “activities necessary to have the software and
infrastructure in place for paperless processing of hearings and appeals.” We found
that both goals were completed and software updates were released to production. Our
findings are consistent with what SSA reported in their Performance and Accountability
Report for FY 2002 for this performance indicator.

However, we found that goal 3-A was completed in October 2000 or 1 year before the
start of FY 2002 (see finding below). We also determined that the specific milestones
listed contributed to the overall objectives of the performance indicator.

GOAL 3-A WAS COMPLETED PRIOR TO FY 2002

As stated above, we found that goal 3-A was completed in October 2000. We also
found that initial planning for this goal began in 1996. Thus, we believe goal 3-A is an
inappropriate goal for FY 2002 since it was completed 1 year prior to the start of
FY 2002.

INACCURATE INTERNAL REPORTING OF PERFORMANCE INDICATOR’S
PROGRESS

Our audit included a review of the internal status tracking of each performance
indicator’s progress. Each month project managers report their project status to the
Office of Strategic Management (OSM) via e-mail. For milestone driven performance
indicators such as these, project managers report the status as "on schedule",
"delayed", "ahead of schedule", "behind schedule" or "completed". OSM generates its
monthly status tracking report based on these e-mails. We reviewed the internal status
tracking report and compared it to the actual status of the project based on interviews
with the project manager and a review of documents completed as part of the project.
We found that goal 3-A was consistently reported as on-schedule even though it was


Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)               5
completed in October 2000. Additionally, we found that goal 2-E was reported as on-
schedule on the internal status tracking report. However, based on our review, the goal
will not be completed until FY 2003. Thus, we found that inadequate controls for the
project status reporting process led to the inaccurate reporting.


OTHER MATTERS

As part of our audit, we reviewed the strategic objective for each performance indicator
from the FY 2002 APP. Strategic objective A4 states that SSA seeks to “maintain
accuracy, timeliness, and efficiency of service to people applying for OASDI and SSI
aged benefits.” While the APP had measures to determine the timeliness and accuracy
of OASDI and SSI claims, we found that there were no supporting performance
indicators related to efficiency. Without this performance indicator, SSA will not have
baseline data to measure improvements for implementing software and infrastructure
for paperless processing of OASDI and SSI aged claims.

Strategic objective A5 states that SSA seeks to “improve the efficiency of service to
people applying for DI and SSI disability benefits.” We found that there are no
supporting performance indicators related to efficiency. SSA is making significant
investments in software and infrastructure for electronic processing of disability claims
and should develop indicators that report on the results of these efforts.

In conducting our audit, we also noted that the performance indicators reviewed did not
include adequate descriptions of each goal. For example, goal 1-A states:

       “Accommodate dual entitlement advance file cases; automate determination of
       need to develop military service allegations; update the workers compensation
       file; and control certain exceptions via a PCACS interface.”

The APP does not define these enhancements or explain how they relate to the
underlying performance indicator. Our audit determined that this goal increases SSA’s
capacity to process paperless RSI claims. The APP should include plain language
definitions for each goal and succinctly define how they contribute to the overall
strategic objective.




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)            6
CONCLUSIONS AND RECOMMENDATIONS
Our audit found that the five of the nine goals listed for the three performance indicators
were completed for FY 2002. Overall, we found that the goals developed for each
performance indicator contributed to the underlying strategic objective and are
acceptable measures. Additionally, the goals were developed or implemented with
adequate controls and an appropriate systems development methodology.

We note that four of the nine goals listed in this report were not completed by
fiscal year-end. We found that goal 3-A was inappropriate since it was completed in
October 2000. We also note that goal 3-A was internally reported as being on-schedule
though it was completed in October 2000 and goal 2-E was reported as on-schedule
even though is was not scheduled for completion until after FY 2002. Our
recommendations are as follows:

1. Set goals that have not already been achieved

We recommend that SSA set goals for a fiscal year that have not already been
achieved in a prior fiscal year.

2. Improve internal controls for reporting project status

We recommend that SSA improve internal controls for reporting monthly project status
to OSM. Final performance indicators should be agreed on and signed off to ensure
that they accurately reflect OSM and the project manager’s intent. OSM should also
require more detailed reporting of milestone-related performance indicators in order to
accurately assess and report their status.

3. Add performance indicators that address efficiency as part of Strategic
   Objective A4 in the APP

We recommend that SSA add performance indicators to address efficiency as part of
this Strategic Objective. This will assist SSA in measuring the results of their
investments in new technology and infrastructure. The new indicators will also provide
SSA the ability to track progress over time.

4. Add performance indicators that address efficiency as part of Strategic
   Objective A5 in the APP

We recommend that SSA add performance indicators to address efficiency as part of
this strategic objective. This will assist in measuring the progress of the AeDib initiative
and allow SSA to track improvements over time.




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)              7
AGENCY COMMENTS

SSA agreed with our recommendations. They will remove goals that have already been
completed in a prior fiscal year (Recommendation 1). SSA will also assure that
components accurately report on milestones (Recommendation 2). It was noted that
most milestone measures have been eliminated for FY 2003. SSA’s “FY 2004 and
Revised Final FY 2003 APP” will have efficiency measures for the OASDI and SSI
programs (Recommendation 3 and 4). The full text of SSA’s comments can be found in
Appendix C.

PWC RESPONSE

The Agency plans outlined in their comments are responsive to the issues we identified
and, when fully implemented, should satisfy the recommendations.




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)        8
                                               Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Acronyms
APPENDIX C – Agency Comments




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)
                                                                               Appendix A
Scope and Methodology
We conducted this audit to examine three performance indicators related to the Social
Security Administration’s (SSA) electronic and paperless processing initiatives. Our
audit includes work completed as of December 11, 2002.

To test the completion of the goals listed in each performance indicator, we:
   •   Reviewed all final work and related documents;
   •   Ensured that completed work adequately addressed the stated objectives in the
       performance plan;
   •   Ensured that the goals were completed by fiscal year-end;
   •   Ensured software releases were performed in accordance with SSA’s Software
       Development Life Cycle;
   •   Evaluated SSA’s processes and controls in completing each milestone to ensure
       that they conformed with industry standard practices; and
   •   Reviewed the process for internally reporting the status of each performance
       indicator.
In conducting this audit, we also:
   •   Reviewed SSA’s Performance and Accountability Report for FY 2001, SSA’s
       Annual Performance Plan for FY 2001, and SSA’s Revised Performance Plan for
       FY 2002 to determine related milestones, definition, and data source for each
       performance indicator;
      Reviewed Government Performance and Results Act (GPRA) and Office of
       Management and Budget guidance related to GPRA; and
   •   Interviewed the respective project team for each milestone to gain an
       understanding of the goal, the process to complete each goal, and the outcome
       of the overall project.
Our audit was limited to testing at SSA’s Headquarters in Woodlawn, Maryland. The
procedures we performed were in accordance with the American Institute of Certified
Public Accountants’ Statement on Standards for Consulting Services and General
Accounting Office’s Government Auditing Standards (“Yellow Book”) for performance
audits.




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)
                                                                               Appendix B
Acronyms
Act            The Social Security Act
AeDib          Accelerated Electronic Disability Program
APP            Annual Performance Plan
DI             Disability Insurance
EF             Electronic Folder
FY             Fiscal Year
GPRA           Government Performance and Results Act
HOTS           Hearings Office Tracking System
MSSICS         Modernized Supplemental Security Income Claims System
OASDI          Old Age, Survivors, and Disability Insurance
OSM            Office of Strategic Management
PCACS          Processing Center Action Control System
RSI            Retirement and Survivors Insurance
SSA            Social Security Administration
SSI            Supplemental Security Income




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)
                                                                               Appendix C
Agency Comments




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)
                                          SOCIAL SECURITY



Date:     December 23, 2002                                                         Refer To: S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry Dye /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit:
:         Paperless/Electronic Processing” A-15-02-11084


          We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
          content and recommendations are attached.

          Staff questions may be referred to Trudy Williams on extension 50380.

          Attachment:
          SSA Response




          Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)                C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “PERFORMANCE
INDICATOR AUDIT: PAPERLESS/ELECTRONIC PROCESSING” (A-15-02-11084)


Thank you for the opportunity to review and comment on the subject draft report. As
requested, below are our comments.


Recommendation 1


Set goals that have not already been achieved. SSA should set goals for a fiscal year
(FY) that have not already been achieved in a prior fiscal year.

Comment

We agree and will remove goals that have been completed in a prior fiscal year.

Recommendation 2


Improve internal controls for reporting projected status. SSA should improve internal
controls for reporting monthly project status to the Office of Strategic Management
(OSM). Final performance indicators should be agreed on and signed off to ensure that
they accurately reflect OSM and the project manager’s intent. OSM should also require
more detailed reporting of milestone-related performance indicators in order to
accurately assess and report their status.

Comment


We agree. We will assure SSA components accurately report on milestones. Since
most of the milestone measures have been eliminated for FY 2003, we don’t expect to
encounter this problem.


Recommendation 3


Add performance indicators that address accuracy and efficiency as part of Strategic
Objective A4 in the Annual Performance Plan (APP). SSA should add performance
indicators to address accuracy and efficiency as part of this Strategic Objective. This
will assist SSA in measuring the results of their investments in new technology and
infrastructure. The new indicators will also provide SSA the ability to track progress
over time.
Comment

Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)         C-2
We agree in part with this recommendation. The performance indicators for accuracy
were addressed and are listed on pages 86 and 87 of the “Revised Final Performance
Plan for Fiscal Year 2002.” Concerning the efficiency indicator, the “FY 2004 and
Revised Final FY 2003 APP” will have an efficiency measure. However, it most
probably will not be part of strategic objective A4 as the agency will be refining its
strategic goals and objectives.

Recommendation 4


Add performance indicators that address efficiency as part of Strategic Objective A5 in
the APP. SSA should add performance indicators to address efficiency as part of this
strategic objective. This will assist in measuring the progress of the AeDib initiative and
allow SSA to track improvements over time.

Comment


We agree in part with this recommendation. Concerning an efficiency indicator, the “FY
2004 and Revised Final FY 2003 APP” will have an efficiency measure. However, it
most probably will not be part of strategic objective A5 as the agency will be refining its
strategic goals and objectives.


Other Comment


On page 4 of the report, the under the caption PERFORMANCE INDICATOR
#1 GOALS WERE COMPLETED FOR FY 2002, the first sentence reads, “ We
evaluated SSA’s completion of “activities necessary to have the software and
infrastructure in place for paperless processing or RSI and SSI aged claims.” Should be
revised to read, “We evaluated…infrastructure in place for electronic processing of
hearings and appeals.”




Performance Indicator Audit: Paperless/Electronic Processing (A-15-02-11084)          C-3
                 Overview of the Office of the Inspector General

                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                               Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                         Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) leg l implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
